OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S NEW
PARTNERS INITIATIVE
CREATED UNDER THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 9-000-08-002-P
December 12, 2007
Office of Inspector General


December 12, 2007

MEMORANDUM

TO:                  Director, Office of HIV/AIDS, S. Ken Yamashita, Ph.D.
                     Director, Office of Acquisition and Assistance, Maureen Shauket
                     Agreement Officer, Office of Acquisition and Assistance, Lisa Bilder

FROM:                Director, Performance Audits Division, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s New Partners Initiative Created Under the President’s
                     Emergency Plan for AIDS Relief

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in appendix II of this
report.

This report contains 10 recommendations to improve the implementation of USAID’s New
Partners Initiative. Based on your comments and the documentation provided, we consider that
final action has been taken on Recommendation Nos. 1, 2, 4, 6, 7, and 10, and that
management decisions have been reached on Recommendation Nos. 3, 5, 8, and 9.
Determination of final action for Recommendation Nos. 3, 5, 8, and 9 will be made by the Audit
Performance and Compliance Division upon completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 5 


Does the New Partners Initiative have an impact on USAID 

missions’ workload and in-country efforts to increase the 

number of new indigenous nongovernmental partners to 

help achieve the President’s Emergency Plan for AIDS 

Relief prevention and care goals?..................................................................................... 5 


     Focus Country Staffing Needs Review ....................................................................... 6 


     The Office of HIV/AIDS Should Resolve 

     Where Partners Are Managed .................................................................................... 6 


Do USAID’s partners receiving cooperative agreements 

under the New Partners Initiative have the capacity to 

comply with certain USAID administrative requirements? ................................................ 7 


     Followup Review of Partner Deficiencies 

     Is Needed.................................................................................................................... 8 


     Automated Directives System Should 

     Include a Standard Form for Preaward 

     Surveys for Noncontract Awards................................................................................. 9 


     Partners Need Better Guidance on 

     Work Plans................................................................................................................ 11 


     Partners Need Better Guidance on 

     Program Reporting.................................................................................................... 12 


     Partners Need Guidance on Written

     Procedures for Unallowable Costs ............................................................................ 13 


     Partners Need Guidance on Maintaining 

     Source Documentation.............................................................................................. 14 


     Partners Need Guidance on Completing 

     the Standard Form-269 ............................................................................................. 14 

Evaluation of Management Comments ....................................................................... 16 


Appendix I – Scope and Methodology ........................................................................ 17 


Appendix II – Management Comments ....................................................................... 19 

SUMMARY OF RESULTS

The President’s Emergency Plan for AIDS Relief is a five-year, $15 billion approach to
combat the global HIV/AIDS pandemic. To help support the Plan, President Bush
announced the New Partners Initiative.      The Initiative engages new partner
organizations to increase their number and their capacity to provide HIV/AIDS
prevention and care services.

This audit determined (1) whether the New Partners Initiative (NPI) impacts mission 1     TPF   FPT




workload and efforts to increase the number of partners for the President’s Emergency
Plan for AIDS Relief (PEPFAR) and (2) whether USAID’s NPI partners have the
capacity to comply with USAID administrative requirements.

With respect to the first objective, missions reported that NPI has impacted USAID
mission workload and in-country efforts to increase the number of new partners to help
achieve PEPFAR’s prevention and care goals. Fourteen of 15 PEPFAR focus country 2         TPF   FPT




missions reported that NPI had increased their technical officers’ workload, and 13
reported that NPI has generally increased their missions’ workload. Although missions
indicated that NPI had affected their efforts to create new partners, they were nearly
evenly split about the nature of the impact. (See pages 5–6.)

In the missions’ responses, the Office of Inspector General noted two consistent
messages. First, the missions reported an increased workload caused by NPI.
Second, the missions sent strong signals that the uncertainty about where the future
management of NPI partners would reside had a negative effect on USAID interaction
with the NPI partners. This effect ultimately could affect the effectiveness of the
programs. Accordingly, this report contains two recommendations to Bureau for Global
Health’s Office of HIV/AIDS to address these matters. (See pages 6–7.)

With respect to the second objective, USAID’s partners did not have the capacity to
comply with certain USAID administrative requirements tested during the audit, but the
audit identified areas where the partners are improving compliance with some of those
requirements. Specifically, the audit noted weaknesses in NPI partners’ ability to
comply with financial and program reporting, accounting practices, and work plan
requirements. Accordingly, this report contains five recommendations to the Office of
HIV/AIDS to address these matters. (See pages 11–15.)

Finally, the audit identified two areas for improvement related to the conduct and
management of NPI preaward surveys. First, the agreement officer did not have
written assurance from three NPI partners that deficiencies identified in their preaward
surveys were corrected.       Second, the Automated Directives System does not
recommend the use of a standard evaluation form for conducting preaward surveys or
guidance on the followup review of identified deficiencies. To correct those matters,
this report contains one recommendation to the Office of Acquisition and Assistance

1
TPIn this report, the term “mission” refers to the USAID organizational units known as USAID
     PT




missions (or teams if there is not a mission) in the 15 focus countries.
2
TP The 15 focus countries are Botswana, Ethiopia, Guyana, Haiti, Côte d’Ivoire, Kenya,
     PT




Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.


                                                                                          1
Agreement Officer overseeing the NPI awards and two recommendations to the
Director of the Office of Acquisition and Assistance. (See pages 8–11.)

The auditees concurred with the audit recommendations included in this report and
agreed to take or have taken corrective action on each recommendation. An evaluation
of management comments is presented on page 16. Comments of the audited entities’
management are included in appendix II.




                                                                                  2
BACKGROUND

In 2003, President George W. Bush signed into law the United States Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Act. The act, commonly referred to as the
President’s Emergency Plan for AIDS Relief (PEPFAR), is a 5-year, $15 billion approach
to combat the global HIV/AIDS pandemic—the largest international health initiative in
history by one nation committed to a single disease. Included in the PEPFAR strategy
are goals to support treatment for 2 million HIV-infected people, prevent 7 million new
HIV infections, and provide palliative care to 10 million people infected or affected by
HIV/AIDS, in 15 focus countries. These 15 countries represent approximately half of the
world’s 39 million HIV-positive people and 8 million children orphaned or made
vulnerable by HIV/AIDS.

To help achieve PEPFAR’s aggressive set of goals, President Bush announced the New
Partners Initiative (NPI) in 2005. NPI is directed by the Department of State’s global
AIDS coordinator, who appointed a New Partnerships director to manage the initiative.
NPI offers approximately $200 million through a series of cooperative agreements to
new partner organizations to provide HIV/AIDS services in the 15 focus countries. Many
of these potential partner organizations already provide HIV/AIDS prevention, care, and
treatment services but have little or no experience working with the U.S. Government.

Under PEPFAR, NPI was created to build the capacity of organizations at the community
level to achieve local ownership and enhance the long-term support and viability of
HIV/AIDS responses. Specifically, NPI’s goals are to (1) increase PEPFAR’s ability to
reach people with needed services by identifying potential new PEPFAR partner
organizations, (2) increase the total number of partner organizations and their capacity
to provide prevention and care services, and (3) build capacity in host nations by
developing indigenous capacity to address HIV/AIDS to promote the sustainability of
host nations’ efforts.

To train potential partners about essential HIV/AIDS services, a series of four outreach
conferences was held in the United States in 2006. Following the outreach conferences,
two 3-day technical assistance and capacity-building workshops were held to give
potential partners assistance in developing a comprehensive plan and submitting a
successful grant proposal. NPI offers successful new partners postaward assistance to
implement and develop a sustainable HIV/AIDS program.

On December 1, 2006, the first series of cooperative agreement         awards, totaling
approximately $71 million—$56 million from USAID and $15 million       through partner-
leveraged cost sharing—established 20 awards for 19 new partners       that will provide
services in 13 of 15 focus countries. As of December 31, 2006,         USAID had not
disbursed any NPI project funds to its NPI partners.




                                                                                      3
AUDIT OBJECTIVES
In February 2007, staff from the Bureau for Global Health’s Office of HIV/AIDS hosted a
meeting with auditors from the Office of the Inspector General to discuss Agency
concerns about certain aspects of the New Partners Initiative. In response to the
Agency-requested meeting, the Office of Inspector General initiated this audit to answer
the following objectives:

•	 Does the New Partners Initiative have an impact on USAID missions’ workload and
   in-country efforts to increase the number of new indigenous nongovernmental
   partners to help achieve the President’s Emergency Plan for AIDS Relief prevention
   and care goals?

•	 Do USAID’s partners receiving cooperative agreements under the New Partners
   Initiative have the capacity to comply with certain USAID administrative
   requirements?

Please refer to appendix I for details of the audit’s scope and methodology.




                                                                                      4
AUDIT FINDINGS

Does the New Partners Initiative have an impact on USAID
missions’ workload and in-country efforts to increase the
number of new indigenous nongovernmental partners to help
achieve the President’s Emergency Plan for AIDS Relief
prevention and care goals?
The New Partners Initiative (NPI) has had an impact on USAID missions’ workload and
in-country efforts to increase the number of new indigenous nongovernmental partners
to help achieve the President’s Emergency Plan for AIDS Relief (PEPFAR) prevention
and care goals.        In response to an Office of Inspector General–administered
questionnaire, 14 of 15 focus country missions reported 3 that NPI has increased their
                                                                TPF   FPT




workload. However, the nature of the impact on in-country efforts to increase the
number of new indigenous partners was nearly evenly divided in questionnaire
responses and, consequently, this audit could not conclude whether the impact was
positive or negative.

Specifically, 13 of 14 missions reported that NPI had generally increased their missions’
workload, and all 14 indicated that NPI had increased the workload of the missions’
technical offices supporting PEPFAR efforts.           Because NPI awards cooperative
agreements to organizations with little or no U.S. Government experience, 4 missions TPF   FPT




reported that they are devoting significant time and resources to assist the initiative in
a variety of ways, such as familiarizing partners with administrative requirements and
providing technical guidance for their work plans. Also, missions have provided
substantial effort to support an array of NPI assignments. Focus country personnel have
been utilized to solicit potential NPI partners, review and score concept papers, and
conduct preaward surveys. As a result of the many new responsibilities that missions
are performing for NPI, their ability to effectively manage NPI depends on the availability
of resources. As more NPI agreements are awarded, the burden on focus country
management and technical staff assisting NPI will almost certainly increase.

Although the preponderance of the missions’ responses to the questionnaire concluded
that NPI had impacted their ability to create new indigenous partners, their answers for
whether the impact was positive or negative were inconclusive. When asked to describe
NPI’s impact on in-country efforts to increase the number of new indigenous partners, 12
missions reported an impact, 1 cited no impact, and another did not directly answer the
question. More specifically, of the 12 missions that reported an impact, 5 said NPI had
enhanced their efforts and 7 indicated that NPI had undermined theirs. The inconsistent
responses may be attributed to the missions’ uncertainty about where management of
the NPI partners will reside in the future: at Washington headquarters or in the field. In
fact, the one mission that did not respond to the questionnaire directly indicated such
uncertainty in another question when it responded that the impact “depends on where
the mechanism is managed.”

3
TP    One focus country team, Côte d’Ivoire, did not respond.
     PT




4
TP    Defined as no more than $5 million in U.S. Government funding during the preceding 5 years,
     PT




     excluding disaster or emergency assistance or funding as a subcontractor.


                                                                                                 5
Fourteen missions’ questionnaire responses provided compelling evidence of NPI’s
impact on their workload and drew attention to potential negative impacts of the
uncertainty that mission personnel have about where future management of NPI
partners will reside (i.e., at the Washington headquarters or in the field). These two
matters are discussed more fully in the following two problem areas.

Focus Country Staffing
Needs Review
Thirteen of 14 missions indicated in responses to an Office of Inspector General-
administered questionnaire that NPI had increased their workload and, more specifically,
every one noted that NPI had increased the workload of their technical officers. Many of
the missions indicated or anticipated an increase in the workload of supporting financial
management and contracting offices. One response noted that funding for NPI awards
is not factored into the calculation of funding for mission management and staffing, even
though the work NPI demands of the mission is “significant.”

USAID’s Automated Directives System (ADS) 200.3.2.4 says that the Agency’s core
value of empowerment and accountability “means that authority should be delegated
consistent with the capacity to carry it out in a responsible and accountable manner.”
The Office of Inspector General (OIG) interprets this “core value” to mean that USAID
organizational units should be provided with the capacity to carry out assigned duties
responsibly and with accountability.

Because NPI is a relatively new program, the needed capacity of supporting elements
may not yet be known or factored into resource allocations.

An inadequate allocation of resources to perform focus country mission support and
management of NPI partners could lead to poor performance in the overall program.

   Recommendation No. 1: We recommend that the Office of HIV/AIDS meet with
   the assistant administrator of the Bureau for Global Health to encourage an
   assessment of whether or not the allocated resources in each focus country are
   sufficient to support and manage the workload imposed by the New Partners
   Initiative.


The Office of HIV/AIDS Should
Resolve Where Partners Are Managed
Missions reported uncertainty about the USAID organizational level at which future
management of the NPI partners will occur: at the country level or by Bureau for Global
Health’s Office of HIV/AIDS at the Washington headquarters. In 4 of 14 focus country
responses to an Office of Inspector General–administered questionnaire, the missions
expressed uncertainty about where future management of the NPI partners would be
performed. Additionally, 10 of 14 raised the implications of a transfer of this
management to the field from the Washington headquarters. None cited certainty about
where the future management of NPI partners will occur.



                                                                                       6
USAID’s ADS 200.3.2.3 describes the “core value” of teamwork. It says that “[t]he core
value of teamwork and participation represents a belief that we are more effective when
we work collaboratively with others, through teams or joint consultations with those who
have expertise or interest in the outcome of our work.” Accordingly, OIG concludes that
whatever is decided about where the management of the NPI partners should reside, the
decision should be made based on consultation with affected USAID operational units
and should be shared with the affected focus country missions.

The uncertainty exists because the Office of HIV/AIDS did not clearly communicate to all
focus country technical offices where it believed NPI awards would best be managed.

Missions alluded to the negative impact that the uncertainty is creating. Officials at one
mission suggested that the uncertainty is affecting USAID interaction with its partners
and ultimately could adversely affect the effectiveness of the programs. The same
officials expressed “fear” that the missions’ individual budgets would be used for future
NPI awards.       Another mission commented that “there needs to be a better
understanding of who’s responsible for what—it’s very difficult to stay engaged and
responsive if you’re not sure who’s driving the process.” A third noted that it does not
know the extent to which its financial management office would be affected by NPI
partners because it is uncertain where NPI awards will be managed.

   Recommendation No. 2: We recommend that the Office of HIV/AIDS
   communicate its intentions to focus country technical offices about where New
   Partners Initiative partners would best be managed—at Washington
   headquarters or at the country level.


Do USAID’s partners receiving cooperative agreements under
the New Partners Initiative have the capacity to comply with
certain USAID administrative requirements?
At the time that OIG performed the audit tests, the initial 19 NPI partners did not, as a
group, demonstrate that they had the capacity to comply with selected USAID
administrative requirements. However, after the audit tests were completed, there were
indications that the partners were making improvements to comply with some of those
requirements. Testing determined that only 9 of 19 partners met selected USAID
administrative requirements outlined in all of the initial NPI cooperative agreements. The
requirements tested related to financial and program reporting; accounting systems; cost
sharing; debarment; year-one (the first year) work plans; Executive Order 13224,
“Blocking Property and Prohibiting Transactions with Persons Who Commit, Threaten to
Commit, or Support Terrorism”; special award conditions; and capacity building. Table 1
presents the results of the audit’s testing in terms of the scores assigned to the 19
partners.




                                                                                        7
Table 1: Results of the First Round of NPI Partners’ Capacity to Comply with USAID
Administrative Requirements

                                                           Number of
                Percentage of Requirements Tested That        NPI
                 Individual NPI Partners Complied With      Partners
                                90–100%                        0
                                 80–89%                        9
                                 70–79%                        1
                                 60–69%                        7
                                 50–59%                        1
                                 40–49%                        0
                                 30–39%                        1
                             Total Partners                    19

As shown in Table 1, 10 of 19 NPI partners scored below the 80 percent minimum for a
partner to be considered as having capacity to comply with USAID administrative
requirements. (See appendix I—Scope and Methodology—for additional details.)
Although more than half of the NPI partners lacked the demonstrated capacity to comply
with the USAID administrative requirements tested, the OIG noted some partner
progress.

NPI partner performance relative to USAID administrative requirements is improving with
regard to work plans and financial reporting. For example, the cognizant technical
officer approved none of the initial submissions of the NPI partner work plans for the
period December 1, 2006, through September 30, 2007. By June 30, 2007, all but one
had been revised and approved. Similarly, five partners corrected and resubmitted
financial reports to replace incorrect initial submissions.

Nevertheless, NPI partners performed poorly overall in the areas of complete and
accurate financial reporting, accounting controls, program reporting, and work plans.
The OIG believes that USAID guidance would improve partner capacity for these
important administrative areas, especially since they relate to key controls over U.S.
Government-provided funds, the planning of programs, and the reporting of program
performance. The audit also noted the following areas for improvement in the
administration of the cooperative agreements: (1) the responsible Office of Acquisition
and Assistance agreement officers should have followed up on identified partner
deficiencies and (2) the missions conducting preaward surveys could have better
evaluated NPI partners on administrative and financial requirements if they had used a
standard form. These concerns are discussed further in the following sections.

Followup Review of Partner
Deficiencies Is Needed
The agreement officer responsible for USAID’s NPI awards requested that preaward
surveys be performed on the initial 19 NPI partners to determine whether each partner’s
accounting system met the minimum requirements contained in Title 22, pt. 226 of the
Code of Federal Regulations (22 CFR pt. 226). As a practical matter, the followup
review of accounting system deficiencies identified in NPI partner preaward surveys was
not actively managed. Of the 16 NPI partners that were required to correct deficiencies


                                                                                     8
found during their preaward surveys, 4 did not do so in accordance with the
requirements of their cooperative agreements. Nordic Assistance to Vietnam’s letter
reporting the correction of identified deficiencies was submitted 3 weeks late, Natural
Family Planning Center of Washington, DC, did not address its identified deficiencies,
and neither the agreement officer nor her staff could produce any response from Ajuda
de Desenvolvimento de Povo para Povo Mozambique or Reseau Ivoirien des
Organisations de PVVIH.

Except for a cooperative agreement awarded to Christian Reformed World Relief
Committee, the NPI cooperative agreements stated that the partners must correct
deficiencies in their accounting systems identified in their preaward surveys within 180
days of the effective date of the agreements. The 19 agreements also required that
partners provide the agreement officer with written notification of the correction of those
deficiencies within 180 days of the issuance of the agreement. While ADS 303.2d
broadly asserts that agreement officers are responsible for ensuring that USAID
exercises prudent management over assistance funds, the OIG concludes that reporting
requirements imposed on partners create corresponding management responsibilities
for USAID agreement officers or those they designate.

The agreement officer attributed the lack of management of the identified partner
deficiencies to misunderstandings within the Office of Acquisition and Assistance. There
may have been some uncertainty about who was expected to perform various followup
tasks and the monitoring recipient responses.

Not following up on the resolution of deficiencies identified in the preaward surveys could
result in some partners not correcting the deficiencies in their accounting systems. If
previously identified deficiencies are not corrected, it could result in partners not being
able to account for U.S. Government funds.

   Recommendation No. 3: We recommend that the Office of Acquisition and
   Assistance agreement officer for the New Partners Initiative obtain written
   assurances from Ajuda de Desenvolvimento de Povo para Povo Mozambique,
   Natural Family Planning Center of Washington, DC, and Reseau Ivoirien des
   Organisations de PVVIH that the deficiencies identified in their respective
   preaward surveys have been corrected.


Automated Directives System Should
Include a Standard Form for Preaward
Surveys for Noncontract Awards
Nineteen initial preaward surveys of NPI partners were conducted to determine whether
their accounting systems met the minimum requirements contained in 22 CFR pt. 226.
Twelve were conducted by USAID’s Office of Acquisition and Assistance’s Cost, Audit,
Support Division/Contract Audit Management (CAM), 6 by USAID missions in Ghana,
Mozambique, Thailand, and Zambia, and 1 by the Defense Contract Audit Agency
(DCAA). The six preaward surveys performed by USAID missions did not involve the
use of Standard Form (SF)-1408, Pre-Award Survey of Prospective Contractor –
Accounting System.



                                                                                         9
The SF-1408 helps agreement officers determine whether a prospective recipient’s
accounting system meets the accounting requirements of 22 CFR pt. 226. The SF-1408
contains two sections to be completed by the surveying team. First, a checklist based
on accounting requirements is used to evaluate the partner’s accounting system. For
example, some of the evaluation items prompt a determination as to whether the
partner’s accounting system can adequately accumulate and segregate costs as
allowable, unallowable, direct, and indirect; identify costs by contract; and accumulate
costs under general ledger control. After the accounting requirements have been
assessed, the form is marked accordingly—yes, no, or not applicable—to document that
the requirements have been evaluated. Second, in the next section, the survey team
must consider one of three recommendations regarding the recipient’s accounting
system: (1) acceptable, (2) acceptable—with a recommendation that a followup review
on the accounting system be performed, or (3) unacceptable.

Thirteen NPI preaward surveys performed by CAM and DCAA used SF-1408 5 to                TPF   FPT




evaluate the nongovernmental partners’ accounting systems. The branch chief of CAM
said that his staff routinely uses a modified 6 SF-1408 to evaluate the sufficiency of a
                                                  TPF   FPT




partner’s accounting system. Even though the title of the form includes the word
“contractor,” its design and use are applicable to other entities such as nongovernmental
organizations that are a party to an assistance award, because no other specific form
exists. Accordingly, the OIG concludes that the use of the SF-1408 is standard practice
and is appropriate for the evaluation of NPI partners.

     USAID’s ADS did not require that preaward survey teams complete a SF-1408 or a
     similar standard form. Additionally, the ADS only directed survey teams to submit their
     findings to the agreement officer for review, and the ADS did not require survey teams to
     document which requirements they evaluated. Because the ADS did not provide USAID
     missions with guidance on the use of the SF-1408, the missions evaluated the NPI
     partners based on the administrative and financial requirements they deemed
     appropriate and reported only findings.

     The missions’ choice not to use the SF-1408 may have compromised their ability to
     obtain reasonable assurance that an NPI partner’s accounting system was adequate to
     control and safeguard USAID resources. One preaward survey report did not indicate
     that the mission had evaluated whether the partner’s accounting system could
     differentiate between direct, indirect, allowable, and unallowable costs. Another
     preaward survey performed by a mission did not report whether the partner had
     developed a timekeeping and labor distribution system to document and support
     compensation for personnel services, such as salaries and wages. Had the SF-1408
     been used, it would have been apparent that these matters were reviewed and
     documented. Without SF-1408 guidance, preaward survey teams might overlook or not
     document critical accounting areas that need to be reported.

5
TPFor consistency, we will use the term SF-1408 when discussing the standard template to
     PT




evaluate a prospective recipients accounting system, although DCAA used SF-1408 and
OAA/CAS/CAM used a modified SF-1408.
6
TPThe modified SF-1408 substituted contract award information and standards for noncontract
     PT




award information and standards. The modified SF-1408, “Pre-award Survey for Non-Profit
Organization’s Accounting System Adequacy,” includes the Cost Principles for Non-Profit
Organizations (Office of Management and Budget’s Circular A-122) and other applicable
regulations for nongovernmental organizations.


                                                                                                     10
Although all six of the preaward surveys performed by the USAID missions made
recommendations to improve the accounting systems of NPI partners, only two of the
preaward surveys recommended a followup review to ensure that the recommendations
were implemented. In comparison with the other survey teams, which used the SF-1408
and revealed the same or similar deficiencies in the partners accounting system, 11 of
13 recommendations included a followup review. The two survey teams that used the
SF-1408 but did not recommend a followup review indicated in the survey narrative that
the recipient had made the necessary revisions. Had the USAID missions used the
SF-1408, they would have been prompted with the option to recommend a followup
review on the partner’s accounting system to ensure that corrective action was taken.
Without being prompted by the SF-1408 to recommend a followup review on a
deficiency, missions were less likely to make such a recommendation, and deficiencies
in NPI partner accounting systems could go uncorrected.

   Recommendation No. 4: We recommend that the director of the Office of
   Acquisition and Assistance devise a form based on the Standard Form-1408 to
   be used in conducting preaward surveys for awards other than contracts.

   Recommendation No. 5: We recommend that the director of the Office of
   Acquisition and Assistance amend the Automated Directives System 303.3.9 to
   encourage the use of a Standard Form-1408 or a modified Standard Form-1408
   for preaward surveys, so that preaward surveys will provide sufficient assurances
   about what the survey reviewed and will prompt, if warranted, a followup review
   of recommended improvements to the partner’s accounting system.


Partners Need Better Guidance
on Work Plans
The initial work plan submissions by NPI partners deviated from the work plan template
provided by the cognizant technical officer (CTO). Based on OIG testing, 13 of the
initially submitted work plans did not contain planned activities and performance
benchmarks delineated by calendar quarter and linked to program goals and objectives.
Similarly, less than half contained an overall presentation in accordance with the
template. Only three provided all of components of the template’s six principal sections
and their subsections. However, no single work plan section or subsection was omitted
in more than 30 percent of the initial submissions.

Each cooperative agreement required that, within 30 days of the signing, the partners
must submit an annual work plan for Year 1 (the first year) of the agreement, showing
the planned activities and performance benchmarks, delineated by each calendar
quarter, and linked to program goals and objectives. The agreements also noted that a
work plan template would be provided by the designated CTO.

The work plan template the CTO gave to the partners did not provide guidance on all
work plan sections and subsections, and the CTO agreed that the template should have
provided greater clarity about what was expected. Additionally, the cooperative
agreement’s assertion that work plans “may be required to be developed with




                                                                                       11
consultation by the USG Country Team” may have led some partners to believe that
they need only submit a working draft, as USAID staff would assist them in correcting it.

Because of deficiencies in the first year’s work plans, USAID did not approve some of
the NPI partner work plans until 5 months into the first year’s shortened, 10-month year. 7  TPF   FPT




For 12 partners, about 7 months of the year passed before they were approved, and
1 had not been approved at the beginning of the eighth month. This means that no
partner work plan was accepted until half of the year to which it applied had elapsed. It
is also notable that the Office of HIV/AIDS, mission, and other technical staff devoted a
substantial amount of time and effort to correct incomplete and deficient work plans.

          Recommendation No. 6: We recommend that the Office of HIV/AIDS revise its
          work plan template for the New Partners Initiative partners so that it contains
          guidance on how to prepare all work plan sections and subsections, and that it
          communicates that the work plan submissions must be complete, correct, and
          ready for USAID approval when due.


Partners Need Better Guidance
on Program Reporting
Ten 8 NPI partners’ semiannual performance reports did not contain program information
          TPF   FPT




that is required by regulation cited in the cooperative agreements. Specifically, 10 NPI
semiannual reports had 2 types of deficiencies: reports (1) did not contain reasons why
established goals were not met and/or (2) did not contain information about program
goals and objectives established for the period.

Nineteen NPI partners were required to submit their first semiannual performance report
by April 30, 2007, to document their program achievements, goals, and objectives, as
well as reasons why their goals were not met. All 20 cooperative agreements stated that
program reports shall be in keeping with 22 CFR pt. 226. Section 226.51of title 22 of the
CFR describes the requirements that generally should be contained in program
performance reports, including “a comparison of actual accomplishments with the goals
and objectives established for the period…” or if appropriate, “reasons why established
goals were not met.” Additionally, the regulations cite “other pertinent information
including, when appropriate, analysis and explanation of cost overruns.”

To assist the partners in completing their semiannual performance reports, the Office of
HIV/AIDS distributed a template. The template required partners to provide details
about their program activity, including startup activities; preaward conditions; technical
assistance; and achievements, success, and challenges. Because the template did not
require details about goals and objectives and reasons why they were not met, the
partners might not have included this information. The Office of HIV/AIDS stated in the
template that “If there is a template provided by the country team – it is permissible to
submit the same report to the cognizant technical officer in Washington.” This guidance

7
TPThe initial 20 NPI awards to the 19 NPI partners were made December 1, 2006. Accordingly,
     PT




their first year includes only the 10 months from December 1, 2006, through September 30, 2007.
8
TPAdditionally, one partner did not submit its semiannual performance report to provide the
     PT




program information required by the regulation.


                                                                                            12
suggested that partners had an option to report their program performance, an option
that was not in the requirements contained in the cooperative agreement.

With a false impression of what NPI partners must include in their semiannual
performance reports, partners may continue to submit incomplete reports. This could
create inefficiencies by prompting the Office of HIV/AIDS to embark on what could be a
lengthy process of working with partners to correct deficient reports, as occurred with
NPI partner work plans.        Additionally, the continued submission of incomplete
semiannual performance reports could leave Office of HIV/AIDS program managers
unaware of programmatic successes and any matters needing correction.

   Recommendation No. 7: We recommend that the Office of HIV/AIDS revise its
   guidance for the New Partners Initiative partners on semiannual performance
   reports to ensure that the guidance is consistent with the program reporting
   requirements contained in the New Partners Initiative cooperative agreements.


Partners Need Guidance on Written
Procedures for Unallowable Costs
Of the 19 preaward surveys conducted on NPI partners, 13 partners lacked written
procedures to determine the reasonableness, allocability, and allowability of costs, in
accordance with 22 CFR pt. 226. Additionally, two preaward surveys did not clearly
indicate whether the partners had written procedures to determine the reasonableness,
allocability, and allowability of costs.

Section 226.21 of title 22 of the CFR discusses standards for financial management
systems. In particular, 22 CFR § 226.21(b)(6) specifically says that a recipient’s
financial management system shall provide “written procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of
the applicable Federal cost principles and the terms and conditions of the award.”

NPI identifies and awards cooperative agreements to organizations with little or no
experience working with the U.S. Government. Consequently, the partners may not
have been familiar with U.S. Government regulations and may not have known about the
standards for financial management systems.

Fifteen partners whose preaward surveys could not identify written procedures to
determine the reasonableness, allocability, and allowability of costs pose a risk to
USAID. Without these written procedures in place, USAID funds are susceptible to
unintentional errors, misappropriation, or even fraud. The lack of these procedures
could prove detrimental to the sustainability of a partner’s program and the progress of
NPI. Therefore, these vulnerabilities could compromise the intended use of USAID
funds and overall success of NPI.

   Recommendation No. 8: We recommend that the Office of HIV/AIDS, in
   collaboration with the Office of Acquisition and Assistance for the Bureau for
   Global Health, devise technical guidance for New Partners Initiative partners on
   developing written procedures to determine the reasonableness, allocability, and
   allowability of costs.



                                                                                        13
Partners Need Guidance on
Maintaining Source Documentation
The preaward surveys performed on the initial 19 NPI partners reported that 14 of 19
partners did not maintain adequate source documentation. Source documentation
includes, but is not limited to, evidence that recorded costs are traceable to original
receipts, invoices, and timesheets for labor costs. Specifically, 14 partners were unable
to produce documentation detailing their employees’ total labor hours associated with
appropriate cost objectives. Additionally, three partners did not have adequate
supporting documenting for expenses incurred.

Title 22, pt. 226 of the CFR, cited in the NPI cooperative agreements, specifies in
section 226.21(b)(7) that recipients’ financial management systems shall provide that
“accounting records, including cost accounting records, are supported by source
documentation.” Section 226.27 of title 22 of the CFR refers to “cost principles
applicable to the entity incurring the costs” and 2 CFR pt. 230, appendix B, paragraph
8.m(1), requires, “charges to awards for salaries and wages... be based on documented
payrolls approved by a responsible official of the organization. The distribution of
salaries and wages to awards must be supported by personnel activity reports.…”

Because NPI identifies and awards cooperative agreements to organizations with little or
no experience working with the U.S. Government and its regulations, the new partners
may not have known about U.S. Government requirements relating to the need for
source documentation.

Without source documentation, the partner’s accounting system provides no assurance
that USAID-provided funds were spent in accordance with the agreement and in
furtherance of its program objectives. Furthermore, unsupported costs may not be
charged to the award, as this could jeopardize the potential viability of any NPI partner
program.

   Recommendation No. 9: We recommend that the Office of HIV/AIDS, in
   collaboration with the Office of Acquisition and Assistance for the Bureau for
   Global Health, provide technical guidance for the New Partners Initiative partners
   on how to maintain adequate source documentation.


Partners Need Guidance on
Completing the Standard Form-269
Standard Form (SF)-269 is commonly referred to as a financial status report. All 20 NPI
cooperative agreements required that partner financial reports “shall be in keeping with
22 CFR Part 226” and that the reports shall be submitted quarterly. Section 226.21(b)(1)
of title 22 of the CFR required the NPI partners’ SF-269s to provide “accurate, current,
and complete disclosure of the financial results of each federally-sponsored project or
program….” Accordingly, as an administrative requirement, the NPI partners are
accountable for timely submission of an accurate and complete SF-269.



                                                                                        14
Eight NPI partners did not properly disclose correct financial information when they
submitted their first SF-269s for the quarter ending December 31, 2006. The initial
submissions contained mistakes, such as omitted values and inaccuracies in citing when
USAID-provided funds were received. Some partners received funds in the second
quarter but reported them as received in the first quarter.

Because NPI identifies and awards cooperative agreements to organizations with little or
no experience of working with the U.S. Government, the partners may not have been
familiar with how to complete SF-269.

To correct the mistakes, many e-mails were exchanged between the Office of HIV/AIDS
and the partners. Specifically, the Office of HIV/AIDS reviewed and addressed each of
the eight partners’ initially submitted SF-269s and revised versions individually. This
was a time-consuming process because it involved repeated communications between
the Office of HIV/AIDS and the partner. Finally, the Office of HIV/AIDS provided the
partners with a PowerPoint presentation to explain how the SF-269 should be
completed. We are making the following recommendation to prevent a repetition of this
inefficient process.

   Recommendation No. 10: We recommend that the Office of HIV/AIDS, in
   consultation with the Office of the Chief Financial Officer, devise Standard
   Form-269 training materials for New Partners Initiative partners.




                                                                                     15
EVALUATION OF
MANAGEMENT COMMENTS
The Office of HIV/AIDS and the Office of Acquisition and Assistance agreed with the
recommendations in the draft audit report, and described the actions planned and taken
to address our concerns. As a result, we conclude that final action has been taken on
six recommendations and that management decisions have been reached on four.

To address Recommendation No. 1, the Office of HIV/AIDS met with the Bureau for
Global Health’s assistant administrator on November 7, 2007, to discuss management
and staffing requirements. Accordingly, final action has been reached for this
recommendation.

To address Recommendation No. 2, the Office of HIV/AIDS has communicated its
intentions relative to where partners would best be managed, and the office intends to
do so again. Accordingly, final action has been reached for this recommendation.

To address Recommendation No. 3, the Office of Acquisition and Assistance has begun
to respond to the recommendation and did not request closure of the recommendation.
Accordingly, a management decision has been reached for this recommendation.

To address Recommendation No. 4, the Office of Acquisition and Assistance has
devised a form based on the SF-1408, so final action has been reached for this
recommendation.

To address Recommendation No. 5, the Office of Acquisition and Assistance has
devised a plan to revise ADS 303.3.9. Accordingly, a management decision has been
reached for this recommendation.

To address Recommendation No. 6, the Office of HIV/AIDS has revised and distributed
its work plan template.  Accordingly, final action has been reached for this
recommendation.

To address Recommendation No. 7, the Office of HIV/AIDS has revised and distributed
its guidance for semiannual performance reports. Accordingly, final action has been
reached for this recommendation.

To address Recommendation Nos. 8 and 9, the Office of HIV/AIDS has requested that
its technical assistance provider develop guidance for partners. Accordingly, a
management decision has been reached for these recommendations.

To address Recommendation No. 10, the Office of HIV/AIDS has worked with the Office
of the Chief Financial Officer to devise training materials on completing the SF-269.
Accordingly, final action has been reached for this recommendation.

Management comments are included in their entirety in appendix II.




                                                                                   16
                                                                                       APPENDIX I 




SCOPE AND METHODOLOGY

Scope
This audit was conducted by the Office of Inspector General in accordance with
generally accepted government auditing standards. The first of two objectives of the
audit was to assess how the New Partners Initiative (NPI) impacts USAID workload and
in-country efforts in 15 of the President’s Emergency Plan for AIDS Relief (PEPFAR)
focus countries to increase the number of nongovernmental partners to help achieve
prevention and care goals. To answer this question, the audit team asked country-team
personnel in all 15 focus countries whether the awards are having an impact on mission
PEPFAR efforts. The team did not receive a response from the staff involved with one
focus country, Côte d’Ivoire.

The audit’s second objective was to determine whether the initial 19 partners receiving
awards under NPI have the capacity to comply with certain USAID administrative
requirements. 9 Representatives of the Office of HIV/AIDS indicated that they hoped the
               TPF   FPT




audit would identify vulnerabilities that the new initiative may create for USAID.

In planning and performing the audit’s second objective, the audit team identified and
reviewed internal controls related to administrative requirements contained in USAID’s
initial 20 NPI cooperative agreements signed on December 1, 2006. The team tested
demonstrated partner performance in meeting the administrative requirements and
reviewed Agency assessments of the partners. In doing so, the team reviewed the 20
cooperative agreements; documents related to financial reporting; accounting, program
reporting; cost sharing; debarment; work plans; Executive Order 13224, “Blocking
Property and Prohibiting Transactions with Persons Who Commit, Threaten to Commit,
or Support Terrorism”; preaward surveys; and the partner capacity assessment report.
The team interviewed Bureau for Global Health and Office of Acquisition and Assistance
personnel, but did not contact the NPI partners or verify their financial or performance
data submissions. The team typically reviewed the initial submissions of partner
documents, although it tempered those assessments by determining whether or not the
Agency subsequently accepted partner-made corrections. In cases in which Agency
officials could not produce requested documents, the team assumed that they had not
been submitted by the partner and set June 30, 2007, as a cut-off date. Accordingly,
some partners could have made substantial improvements subsequent to the team’s
testing.

Audit fieldwork was conducted at USAID’s headquarters in Washington between
March 29 and September 12, 2007. When signed, the initial 20 NPI awards amounted


9
TPDuring the exit conference, the Office of HIV/AIDS and the Office of Acquisition and Assistance
     PT




for the Bureau for Global Health explained that NPI partner Youth Health Organization was
reassigned to USAID on July 24, 2007. Since the Office of Acquisition and Assistance for the
Bureau for Global Health originally stated that the partner’s cooperative agreement and
responsibility for it was transferred to another agency, this audit did not test, consider, or include
the Youth Health Organization in any results or reviews. Furthermore, the partner was reassigned
to USAID subsequent to the June 30, 2007, cut-off date for receiving information.


                                                                                                   17
to about $71 million ($15 million of which was cost sharing), although no USAID funds
had been disbursed through those awards as of December 31, 2006.

Methodology
To address the first audit objective, the audit team, in coordination with Office of
HIV/AIDS staff, devised a questionnaire for USAID personnel in the 15 focus countries to
gather insight about the impact that NPI is having on their workload and in-country
programs to increase the number of new indigenous nongovernmental partners. Results
of the survey were compiled, analyzed, and reported.

To answer the second audit objective, the audit team selected administrative terms of
the 20 cooperative agreements. 10 Based on the information, the audit team judgmentally
                                        TPF   FPT




selected standards within those terms useful for testing. The team devised tests and
applied a subjective scoring methodology to the test questions.

With the assistance of a statistician, the team established that individual partners’ test
results above a statistical threshold of 80 percent indicated their capacity to comply with
USAID administrative requirements. Additionally, the team determined the audit
threshold criteria as follows:

            1. 	 If at least 17 of 19 partners’ test results indicated capacity to comply with USAID
                 administrative requirements, the answer to the audit objective would be that the
                 partners had the capacity to comply with selected USAID administrative
                 requirements.

            2. 	If 16 of 19 partners’ test results indicated capacity to comply with USAID
                administrative requirements, the answer to the audit objective would be that the
                partners had some capacity to comply with selected USAID administrative
                requirements.

            3. 	 If fewer than 16 partners’ test results indicated capacity to comply with USAID
                 administrative requirements, the answer to the audit objective would be that the
                 partners were unable to comply with selected USAID administrative
                 requirements.

The audit team established these threshold criteria to assist in answering the audit
objective, but it also applied auditor judgment in making its overall conclusion. For
example, the team considered other factors such as the perspectives of Agency
personnel and subsequent partner efforts to comply with the administrative
requirements.




10
TP   PT   One partner, Geneva Global, was awarded two cooperative agreements.


                                                                                                 18
                                                            APENDIX II




MANAGEMENT COMMENTS





MEMORANDUM


TO: 	      IG/A/PA, Steven H. Bernstein

FROM: 	    GH/OHA, S. Ken Yamashita
           M/OAA/OD, Maureen Shauket

SUBJECT: Management’s Response to draft Audit of USAID’s New
Partners Initiative Created Under the President’s Emergency Plan for
AIDS Relief

Thank you for the opportunity to respond to the draft audit report on
the Agency’s implementation of the New Partners Initiative (NPI)
established through the President’s Emergency Plan for AIDS Relief
(PEPFAR). Management has reviewed carefully the
recommendations and has taken, or will take, the following actions in
response.

Recommendation 1: We recommend that the Office of HIV/AIDS
meet with the Assistant Administrator of the Bureau for Global Health
to encourage an assessment of whether or not the allocated
resources in each focus country are sufficient to support and manage
the workload imposed by the New Partners Initiative.

Management Decision: The Office of HIV/AIDS (OHA) concurs with
the recommendation. Even before the results of this audit, the
Assistant Administrator for Global Health called for a review of

                                                                    19
staffing in the field as well as in Washington and has approached the
OGAC coordinator for additional funding to support additional staff
requirements associated with implementing PEPFAR. On November
7, 2007 OHA met again with the Assistant Administrator to provide an
update on the management and staffing requirements of PEPFAR
including management of NPI. In addition, the headquarters review of
the annual country operational plans (COPS) for FY 08 submitted by
the 15 focus countries includes an assessment of the actual and
proposed management and staffing resources allocated to
implementing PEPFAR, including the workload imposed by NPI. In
reviewing the management and staffing plans submitted as part of the
FY 2008 COPS, OHA will include an assessment of the adequacy of
the Mission’s staffing resources available to support all PEPFAR
activities including NPI and will include any recommendations for
additional staff as part of the formal feedback to the field.

On this basis, we kindly request that the recommendation be closed
upon issuance of the final audit report.

Recommendation 2: We recommend that the Office of HIV/AIDS
communicate its intentions to focus countries technical offices about
where New Partners Initiative partners would be best managed-at
Washington headquarters or the country level.

Management Decision: OHA concurs with the recommendation. OHA
believes that field missions are in the best position to manage NPI
partners where the programs are being implemented except for those
partners implementing multi-country projects. In cases where an NPI
partner has activities in multiple countries, OHA believes that
management is more appropriately located in OHA. Upon award,
each mission was asked if they were willing and capable of assuming
full responsibility for the NPI agreements in their countries but few
accepted the offer. (See attachment 1) As a result, OHA has retained
management responsibility for most of the NPI grantees. However, in
all cases, the missions identified a local activity manager to serve as
the primary point of contact for NPI. As a follow-up, the Director of
OHA will communicate to all focus countries with NPI partners the
preference for in-country management of NPI agreements but that
OHA will continue to manage the agreements in cases where the field



                                                                     20
declines to assume responsibility and for grantees operating in
multiple countries.

On this basis, we kindly request that the recommendation be closed
upon issuance of the final audit report.

Recommendation 3: We recommend that the Office of Acquisition
and Assistance Agreement Officer for the New Partners Initiative
obtain written assurances from ADPP Mozambique, Natural Family
Planning Center of Washington, DC and Reseau Iviorien des
Organisations de PVVIH, which of the deficiencies identified in their
respective pre-award surveys have been corrected.

Management Response: OAA concurs with the recommendation.
OAA has performed a follow-up survey on Natural Family Planning
Center (NFPC) of Washington, DC. The survey highlighted several
deficiencies which were not corrected from the initial survey. NFPC’s
cooperative agreement will be modified to allow a further six months
to correct deficiencies identified in the follow-up survey. In regard to
ADPP Mozambique, Natural Family Planning Center of Washington,
DC and Reseau Iviorien des Organisations de PVVIH, M/OAA
received correspondence from those organizations addressing the
concerns from their respective pre-award surveys. Therefore, M/OAA
requests that the portions of Recommendation 3 dealing with these
organizations be closed.

Recommendation 4: We recommend that the Director of the Office of
Acquisition and Assistance devise a form based on the Standard
Form-1408 to be used in conducting pre-award surveys for award
other than contracts.

Management Response: OAA concurs with the recommendation. We
have an adaptation of the SF 1408 form that is in use for assistance
awards.

On this basis, we kindly request that the recommendation be closed
upon issuance of the final audit report. (See attachment 3)

Recommendation 5: We recommend that the Director of the Office of
Acquisition and Assistance amend the Automated directives system’s

                                                                        21
Chapter 303.3.9 to encourage the use of a Standard Form-1408 or a
modified Standard Form-1408 for pre-award surveys, so that pre-
award surveys will provide sufficient assurances about what the
survey reviewed and will prompt, if warranted, a follow-up or
recommended improvements to the partner’s accounting system.

Management Response: OAA concurs with the recommendation.
OAA’s Policy Division and CAM Branch will work together to amend
the appropriate ADS chapters. This action will be concluded by June
30, 2008.

Recommendation 6: We recommend that the Office of HIV/AIDS
revise its work plan template for the New Partners Initiative partners
so that it contains guidance on how to prepare all work plan sections
and subsections and that it communicates that the work plan
submissions must be complete, correct and ready for USAID
approval when due.

Management Response: OHA concurs with the recommendation.
OHA has revised its work plan template for NPI partners to include
guidance on how to prepare all work plan sections and subsections
and has communicated the updated template to all NPI partners. The
communication indicates OHA’s expectation that all work plans will be
complete, correct and ready for approval by the designated due date.
(See attachment 4) In addition, the NPI technical assistance partner,
Academy for Educational Development (AED), has included in its
work plan training and assistance for NPI partners in work plan
preparation. (See attachment 5)

On this basis, we kindly request that the recommendation be closed
upon issuance of the final audit report.

Recommendation 7: We recommend that the Office of HIV/AIDS
revise its guidance for the New Partners Initiative partners on semi
annual performance reports to ensure that the guidance is consistent
with the program reporting requirements contained in the New
Partner Initiative cooperative agreements.

Management Response: OHA concurs with the recommendation.
OHA has revised its guidance to NPI partners on semi-annual

                                                                     22
performance reports and provided partners with a template that they
can use in submitting performance reports that captures the
information required by PEPFAR. (See attachment 6)

On this basis, we kindly request that the recommendation be closed
upon issuance of the final audit report.

Recommendation 8: We recommend that the Office of HIV/AIDS, in
collaboration with the Office of Acquisition and Assistance for the
Bureau of Global Health, devise technical assistance guidance for
New Partner Initiative partners on developing written procedures to
determine the reasonableness, allocability and allowability of costs.

Management Response: OHA concurs with the recommendation.
OHA has requested its NPI technical assistance (TA) provider, AED,
to develop guidance for NPI partners on developing written
procedures to determine the reasonableness, allocability and
allowability of costs. The TA provider has included this task as a
priority activity in its first year work plan. Once the Office of
Acquisition and Assistance (OAA) has reviewed and concurred with
the guidance, OHA will communicate the guidance to the partners
and AED will offer training and TA to NPI partners in its use. OHA
expects to complete action on this recommendation by March 31,
2008.

Recommendation 9: We recommend that the Office of HIV/AIDS, in
collaboration with the Office of Acquisition and Assistance for the
Bureau of Global Health, provide technical guidance for the New
Partners Initiative partners on how to maintain adequate source
documentation.

Management Response: OHA concurs with the recommendation.
OHA has requested its NPI technical assistance provider, AED, to
develop guidance for partners on how to maintain adequate source
documentation. The TA provider has included this task as a priority
activity in its first year work plan. Once the Office of Acquisition and
Assistance (OAA) has reviewed and concurred with the guidance,
OHA will communicate the guidance to the partners and AED will
offer training and TA to NPI partners in its use. OHA expects to
complete this action by March 31, 2008.

                                                                           23
Recommendation 10: We recommend that the Office of HIV/AIDS, in
consultation with the Office of the Chief Financial Officer, devise
Standard Form-269 training materials for New Partner Initiative
partners.

Management Response: OHA concurs with the recommendation.
OHA has worked with the Office of the Chief Financial Officer in
devising training materials on completing Standard Form-269. (See
attachment 7 for office of CFO approval of SF-269 training material).    T




In addition, the Office of HIV/AIDS has requested that its NPI
T




technical assistance partner, AED, implement a training program for
NPI partners using these materials as a priority activity in its first year
of operation. (See attachment 8)

Based on the information provided in the management response and
the additional documentation provided management requests that the
following recommendations be closed with the issuance of the audit:
Recommendations 1, 2, 4, 6, 7, and 10.

We appreciate the IG’s continued commitment to improve the
operation of USAID as a critical partner in implementing the
President’s Emergency Program.




                                                                             24
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
